<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 117-23]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-23
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
44-905 PDF             WASHINGTON : 2021         
 
 
 
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 14, 2021
                           OPENING STATEMENT

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1

                              LEGISLATION

S. 914, To amend the Safe Drinking Water Act and the Federal 
  Water Pollution Control Act to reauthorize programs under those 
  Acts, and for other purposes...................................     3


                            BUSINESS MEETING

                              ----------                              


                       WEDNESDAY, APRIL 14, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Markey, Kelly, Padilla, Inhofe, Cramer, Lummis, Boozman, and 
Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everybody. I want to welcome 
one and all for joining us this morning.
    As soon as we have 11 members present, we're going to have 
a short business meeting. As some of you know, Senator Capito 
knows as well, the Government Printing Office made a mistake 
after we passed out and reported out our water infrastructure 
legislation 2 weeks ago. As a result, we need to simply do 
again what we did 2 weeks ago, and that is to report out those 
bills.
    I hope we will do that in short order once we have 11, and 
then we will get back to our business as before us today.
    I am going to start, until we have 11, I am going to start 
with a statement and invite Senator Capito to do that as well. 
If we have 11 people appear magically, we will break and do the 
vote.
    Today's hearing is special for a variety of reasons. One of 
the reasons is because it has the longest title I've ever seen 
in 20 years in the U.S. Senate. The title is Long-Term Solvency 
of the Highway Trust Fund: Lessons Learned from the Surface 
Transportation System Funding Alternatives Program and Other 
User-Based Revenue Solutions, and How Funding Uncertainty 
Affects the Highway Programs. That is it. That is probably the 
longest acronym.
    There is probably a great acronym in there somewhere, 
probably several of them, Senator Capito, but I am not going to 
take our time to figure out what it is.
    I want to thank Senator Capito. I want to thank our staff 
and all of you for helping us put together today's hearing, and 
I especially want to welcome our witnesses. Some of them are 
here in person, and some of them are joining us virtually.
    Senator Capito and I have been informed that our water 
legislation, and I want to thank again Senators Capito, Lummis, 
Cardin, Wicker, others who helped work to make that legislation 
possible to first report out unanimously 2 weeks ago. My thanks 
to all of you who supported it. We are informed by our 
leadership that that legislation very likely will be on the 
floor.
    Pardon? Do we have 11? That is great. All right.
    In that case, we will just hold off for a moment on my 
statement, and my Ranking Member tells me we now have the 
number that we need physically present to be able to vote.
    Therefore the Senate now considers S. 914, the Drinking 
Water and Wastewater Infrastructure Act of 2021. First, we will 
adopt the bipartisan Carper-Capito Amendment No. 1, just as we 
did last month.
    I move to adopt the Carper-Capito Substitute Amendment. 
Senator Capito and I have agreed to do this by voice vote.
    Is there a second?
    Senator Capito. Second.
    Senator Carper. All in favor, say aye.
    [Chorus of ayes.]
    Senator Carper. All opposed, say nay.
    [No audible response.]
    Senator Carper. The ayes have it.
    I now move that the Committee report S. 914, the Drinking 
Water and Wastewater Infrastructure Act of 2021 as amended.
    Is there a second?
    Senator Capito. Second.
    Senator Carper. Moved and seconded.
    All in favor, say aye.
    [Chorus of ayes.]
    Senator Carper. All opposed, say nay.
    [No audible response.]
    Senator Carper. The ayes have it.
    I now ask unanimous consent that the business meeting 
record reflect that S. 914 as amended was reported by the same 
20 to 0 vote as when the Committee acted on March 24th, 2021. I 
further ask that our staff be allowed to make any necessary 
technical and conforming changes to this measure.
    Is there objection? Hearing none, so ordered.
    Now, we will return to our hearing.
    Mary Frances, thank you for helping me get through that 
landmine.
    [Whereupon, at 10:08 a.m., the Committee proceeded to other 
business.]
    [The referenced legislation follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
 
 

    
                                 <all>
</pre></body></html>
